No. 20-1378
IN THE

Supreme Court of the United States
LINDA RIZZO-RUPON, et al.,
Petitioners,
v.
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS, AFL-CIO, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
CERTIFICATE OF SERVICE
I, Elizabeth A. Roma, a member of the bar of this Court, certify that on the 2nd
day of June, 2021, one copy of the Brief in Opposition to the Petition for Writ of
Certiorari filed in the above-captioned case was sent by United States Postal Service
Overnight Mail Delivery to the Supreme Court of the United States. I further certify
than an electronic copy was sent by email to the party listed below who consented to
electronic service:

PATRICK J. WRIGHT
Counsel of Record
MACKINAC CENTER LEGAL FOUNDATION
140 W. Main Street
Midland, MI 48640
(989) 631-0900
wright@mackinac.org
Counsel for Petitioners

I further certify that all parties required to be served have been served.
Executed on June 2, 2021.

/s/ Elizabeth A. Roma
ELIZABETH A. ROMA
Counsel of Record
GUERRIERI, BARTOS & ROMA, PC
1900 M Street, NW, Suite 700
Washington, DC 20036
(202) 624-7400
eroma@geclaw.com
Counsel for Respondents

